--                    Closeout f o r M94100031




                                                       -
-
      This case came to OIG on October 2, 1994, when  r -1
         of                -    (the complainant) sent an electronic
 mail m e s s a g e t o possible conflict of interest by a
 reviewer of a proposal he submitted. The complainant had received
 a poor rating from one reviewer for his proposal
 entitled
"It         He expressed concern that
                      (the subject),
 complainant for certain industrial work, might have reviewed the
 proposal unfairly. He opined that this competitive relationship
 constituted a conflict of interest that should have disqualified
 the subject as a reviewer.
     Choosing to review a proposal despite the alleged conflict
involved in this case does not violate NSF rules. This decision
falls in a grey area where individual judgments about what
constitutes a conflict of interest may reasonably differ. Even if
the complainant's suspicion about the reviewer's identity were
accurate and the complainant's allegation of a competitive
relationship were correct, the subject would be guilty of no more
than bad judgment in not alerting the program officer to the
competitive relationship and choosing to review the proposal.
     OIG decided that, even if the complainant's suspicion about
the reviewer's identity were correct, we would not recommend that
NSF reevaluate its decision Lo decline the proposal. The program
officer has told OIG that, even if the reviewer in question had
rated the. complainant's proposal excellent rather than poor, the
proposal would have been declined based on the content of the other
reviews.   He also explained that other reviewers who gave the
proposal low ratings had not been influenced by the reviewer's
opinion. Even if this review were biased by conflict of interest,
there would thus be no need for NSF to reevaluate its decision to
decline the proposal, as this decision is amply supported by the
record independent of the review in question.
     This inquiry is closed and no further action will be taken on
this case.
cc:   Deputy AIG-Oversight, AIG-Oversight, IG



                            page 1 of 1
